No.
IN THE

'upreme Court of the tluiteb ii§tateo
LOUISIANA HEALTH SERVICE & INDEMNITY CO.,
DOING BUSINESS AS BLUE CROSS BLUE SHIELD OF LOUISIANA,
Petitioner,

v.
ENCOMPASS OFFICE SOLUTIONS, INC.,
Respondent.
CERTIFICATE OF COMPLIANCE WITH RULE 33.1
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a
Writ of Certiorari contains 8,912 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 14, 2019.

Anthony F. Shelley
Miller & Chevalier Chartered
900 Sixteenth St. NW
Washington, DC 20006
Telephone: 202-626-5800
Facsimile: 202-626-5801
E-mail: ashelley@milchev.com
Counsel of Record for Petitioner Louisiana
Health Service & Indemnity Co.

